HHS/OIG, Audit -"Review of Home Health Agencies' Billing for Services Preceded
by a Hospital Discharge,"(A-01-04-00527)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Home Health Agencies' Billing for Services Preceded by a Hospital Discharge," (A-01-04-00527)
March 17, 2006
Complete
Text of Report is available in PDF format (389 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Previous audits identified overpayments to home health agencies that did not comply with
Medicare requirements for billing services preceded by discharges from both an acute care
hospital and a postacute care facility.
Our objective was to determine whether home health agencies complied with Medicare requirements
in billing for fiscal years 2002 and 2003 services that were preceded by discharges from
both an acute care hospital and a postacute care facility.  Home health agencies did
not comply with Medicare requirements in billing for services that were preceded within 14
days by discharges from both an acute care hospital and a postacute care facility.  Specifically,
the home health agencies improperly coded all 400 sampled claims as discharges from a postacute
care facility only, rather than discharges from both an acute care hospital and a postacute
care facility.  Overpayments to home health agencies for these claims totaled $122,674.
We recommended that CMS:  (1) instruct its regional home health intermediaries to recover
the $122,674 in overpayments related to the 400 sampled claims, (2) direct the intermediaries
to use our files containing the remaining 142,069 paid claims with billing errors to recover
additional overpayments estimated at $48 million, (3) emphasize to home health agencies the
need to strengthen billing controls by educating their staffs regarding the identification
of all facilities that discharged the beneficiary within 14 days of the home health episode, (4)
monitor the effectiveness of the newly established prepayment edits and postpayment controls,
and (5) develop data analysis techniques to identify home health agencies with significant
numbers of claims rejected or adjusted by the newly implemented payment controls and subject
those home health agencies to appropriate corrective action.  In its comments on our
draft report, CMS concurred with the recommendations.